IN THE SUPREME COURT OF THE UNITED STATES
No.19-100
CROWN ASSET MANAGEMENT, LLC, PETITIONER
v.
MARY BARBATO
CERTIFICATE OF SERVICE
I, Daniel A. Edelman, counsel for respondent and a member of the Bar of this
Court, hereby certify that on August 8, 2019, true and accurate copies of the foregoing
document were filed via the Court’s electronic filing system and via US-Mail to all
parties of record.
Mr. Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300

Respectfully submitted,
/s/ Daniel A. Edelman
Daniel A. Edelman
Daniel A. Edelman
Edelman, Combs, Latturner & Goodwin, LLC
20 South Clark Street, Suite 1500
Chicago, Illinois 60603
(312) 739-4200
(312) 419-0379 (FAX)

